U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Campbell Alston, Jr. v. United States of America
S.Ct. No. 20-1790
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 21,
2021, and placed on the docket on June 23, 2021. The government’s response is due on July 23,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 23, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1790
ALSTON, CAMPBELL JR.
USA

JOHN D. CLINE
LAW OFFICE OF JOHN D. CLINE
50 CALIFORNIA STREET
STE. 1500
SAN FRANCISCO, CA 94111
415-662-2260
CLINE@JOHNDCLINELAW.COM
GREGORY JAMES DUBOFF
MCGUIREWOODS LLP
800 EAST CANAL STREET
RICHMOND, VA 23219
804-775-1154
GDUBOFF@MCGUIREWOODS.COM

